     Department of Homeland Security

     ��������������������������


   FEMA Should Recover $8.2 Million of the $14.9
  Million of Public Assistance Grant Funds Awarded
        to the Harrison County School District,
             Mississippi—Hurricane Katrina




OIG-14-49-D                               March 2014

                                  OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security
                                        Washington, DC 20528 I www.oig.dhs.gov


                                                   MAR 1 3 2014


MEMORANDUM FOR:                        Major P. (Phil) May




FROM:
                                      ____......,· a       pector General
                                                       f Emergency Management Oversight

SUBJECT:                              FEMA Should Recover $8.2 Million of the $14.9
                                      Million of Public Assistance Grant Funds Awarded
                                      to the Harrison County School District, Mississippi-
                                      Hurricane Katrina
                                      FEMA Disaster Number 1604-DR-MS
                                      Audit Report Number OIG-14-49-D

We audited Public Assistance funds awarded to the Harrison County School District,
Mississippi (District) {FIPS Code 047-0302A-OO). Our audit objective was to determine
whether the District accounted for and expended Federal Emergency Management
Agency (FEMA) funds according to Federal regulations and FEMA guidelines.

The District received a Public Assistance grant award of $14.9 million from the
Mississippi Emergency Management Agency (State), a FEMA grantee, for damages
resulting from Hurricane Katrina, which occurred in August 2005. The award provided
100 percent FEMA funding for emergency protective measures, permanent repairs to
buildings and facilities, demolition costs, and equipment replacement. The award
                                                       1
consisted of 82 large projects and 155 small projects.

We audited 17 projects with awards totaling $8.8 million. This included a full scope audit
of the costs claimed for seven large projects with awards totaling $8.7 million. We also
performed a limited review of 10 small projects totaling $97,713 to determine whether
the District completed the projects. See Exhibit, Schedule of Projects Audited and
Questioned Costs. The audit covered the period of August 29, 2005, to March 22, 2013,
during which the District received $8.8 million in FEMA funds for the 17 projects. At the
time of our audit, the District had not completed work on all projects and, therefore,
had not submitted a final claim to the State for all project expenditures.

1
    Federal regulations in effect at the time of Hurricane Katrina set the large project threshold at $55,500.
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   We conducted this performance audit between March 2013 and October 2013 pursuant
   to the Inspector General Act of 1978, as amended, and according to generally accepted
   government auditing standards. Those standards require that we plan and perform the
   audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
   findings and conclusions based upon our audit objective. We believe that the evidence
   obtained provides a reasonable basis for our findings and conclusions based upon our
   audit objective. To conduct this audit, we applied the statutes, regulations, and FEMA
   policies and guidelines in effect at the time of the disaster.

   We judgmentally selected and reviewed project costs (generally based on dollar value);
   interviewed District, State, and FEMA personnel; reviewed the District’s procurement
   policies and procedures; reviewed applicable Federal regulations and FEMA guidelines;
   and performed other procedures considered necessary under the circumstances to
   accomplish our audit objective. We also notified the Recovery Accountability and
   Transparency Board of all contracts the subgrantee awarded under the projects within
   our audit scope to determine whether the contractors were debarred or whether there
   were any indications of other issues related to those contractors that would indicate
   fraud, waste, or abuse. We did not assess the adequacy of the District’s internal controls
   applicable to its grant activities because it was not necessary to accomplish our audit
   objective. However, we gained an understanding of the District’s method of accounting
   for disaster-related costs and its policies and procedures for administering activities
   provided for under the FEMA award.


                                      RESULTS OF AUDIT

   FEMA should recover $8.2 million of the $14.9 million of grant funds awarded to the
   District. The District did not account for expenditures on a project-by-project basis as
   Federal regulations and FEMA guidelines require. In addition, the District’s claim
   included $8,171,446 of questionable costs, which included:

           $8,109,488 for non-exigent contract work that did not meet Federal
           procurement requirements; and
           $61,958 of duplicate benefits for costs insurance covered.

   In addition, the State should recoup $53,459 of FEMA funds it paid to the District under
   several small projects because FEM! deobligated the projects’ funding after the District
   received insurance proceeds to cover the cost of damages. These findings indicate that
   the State should have done a better job of reviewing the District’s contracting methods
   and projects. Therefore, FEMA should remind the State of its grant management
   responsibilities for monitoring and reviewing costs that subgrantees claim.

www.oig.dhs.gov                                 2                                     OIG-14-49-D
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security

   Finding A: Project Accounting

   The District did not account for large projects on a project-by-project basis. According to
   44 Code of Federal Regulations (CFR) 206.205(b), subgrantees must account for large
   project expenditures on a project-by-project basis. Further, 44 CFR Part 13.20(a)(2)
   states that fiscal control and accounting procedures of a state and its sub-grantees must
   be sufficient to “[p]ermit the tracing of funds to a level of expenditures adequate to
   establish that such funds have not been used in violation of the restrictions and
   prohibitions of applicable statutes.”

   The District commingled disaster-related receipt and expenditure transactions with non-
   disaster transactions in its general account, without separately accounting for project
   balances, receipts, or expenditures. Further, the District’s accounting system did not
   provide a means to readily trace project expenditures to supporting documentation.
   Therefore, we had to rely on direct assistance from District officials to identify project
   costs and related supporting documentation.

   District officials said that their accounting system does not accommodate expenditures
   with separate identifiers. They also said that the State did not inform them of the
   Federal accounting requirements. During our fieldwork, the District began to establish a
   detailed accounting system to track project cost data and reference such data to
   applicable source documents. The District finalized the system during our fieldwork.
   Therefore, we consider this finding resolved and closed.

   Finding B: Contracting Procedures

   The District did not comply with Federal procurement requirements when awarding
   contracts valued at $8,109,488 for permanent repair work. Generally, we do not
   question noncompliant contract costs for work that applicants perform during a public
   exigency. However, the District performed this permanent work after the exigent
   circumstances ended. Federal procurement regulations at 44 CFR 13.36 required the
   District, among other things, to—

           Take all necessary affirmative steps to assure the use of minority firms, women’s
           business enterprises, and labor surplus area firms when possible during the
           procurement process. (44 CFR 13.36 (e)(1))

           Conduct all procurement transactions in a manner providing full and open
           competition. Subgrantees may use noncompetitive procurement under certain
           circumstances, one of which is when the public exigency or emergency will not
           permit a delay resulting from competitive solicitation. (44 CFR 13.36 (c) and 44
           CFR 13.36(d)(4)(i)(B))

www.oig.dhs.gov                                3                                      OIG-14-49-D
                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


   FEMA may grant exceptions to Federal procurement requirements to subgrantees on a
   case-by-case basis (44 CFR 13.6(c)).

   The District Did Not Adequately Consider Minority Firms, Women Business Enterprises,
   and Labor Surplus Firms

   The District could not provide evidence that it took affirmative steps to include minority
   firms, women’s enterprises, and labor surplus area firms for nonemergency permanent
   contract work valued at $8,109,488 under Improved Project 10915 (D’Iberville Middle
   School replacement).2 The District’s D’Iberville Middle School sustained major damage
   during the disaster. Rather than replace the middle school, the District decided to build
   a new high school as an improved project using FEMA funds up to the amount FEMA
   awarded to replace the destroyed middle school and using District funds for the
   remainder of costs. The District placed middle school students in temporary facilities
   during the construction of the new high school and converted the old high school to
   middle school facilities after it completed the new high school. The District used a
   competitive process to select a contractor to construct the new facility. However, it
   could not provide us with evidence that it provided minority firms, women’s enterprises,
   and labor surplus area firms an opportunity to participate in the federally-funded work.
   Therefore, we question the $8,109,488. This amount also includes $117,823 of costs we
   question below under full and open competition (Project 10915). Therefore, we
   question a net amount of $7,991,665 in this portion of finding B.

   District officials disagreed that we should question the contract costs. They said that
   they worked with FEMA and the State during the procurement process and neither
   made the District aware of the Federal requirement concerning minority firms, women’s
   enterprises, and labor surplus area firms. However, District officials signed a State-Local
   agreement that stated they would comply with Federal contracting requirements.

   Full and Open Competition

   The District did not solicit competitive bids when hiring a contractor for architectural
   and engineering (A/E) contract work totaling $117,823 under Project 10915. The District
   hired the contractor in August 2006, approximately 1 year after the disaster, to perform
   A/E services on the replacement of D’Iberville Middle School. Full and open competition
   increases the probability of reasonable pricing from the most qualified contractors and
   helps discourage and prevent favoritism, collusion, fraud, waste, and abuse. The District

   2
     When performing restoration work on a damaged facility, an applicant may decide to use the
   opportunity to make improvements to the facility. Projects that incorporate such improvements are called
   improved projects.

www.oig.dhs.gov                                       4                                          OIG-14-49-D
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security

   sent bid invitations (based on qualifications) to nine sources, but did not advertise
   publicly to allow other qualified parties the opportunity to bid. Therefore, we question
   the $117,823.

   District officials disagreed with our finding saying that state procurement laws do not
   require public advertisement for A/E services. Our review of state procurement laws did
   not corroborate the District’s assertion. Nonetheless, Federal procurement regulations
   required the District to openly compete the contract because none of the circumstances
   allowing an exception to the requirement applied in this particular case.

   Summary

   FEMA has no assurances that the District provided opportunities for minority firms,
   women business enterprises, and labor surplus firms to participate in the federally-
   funded work, or that the price paid for the A/E work was fair and reasonable. Therefore,
   we question the $8,109,488 of costs the District claimed for contract work that did not
   meet Federal procurement requirements.

   Finding C: Duplicate Benefits

   FEMA awarded the District $61,958 under small Projects 7878 and 8512 for activities
   that insurance proceeds covered. According to Section 312(a) of the Stafford Act, grant
   recipients cannot use FEMA funds for expenditures recoverable from another Federal
   program, insurance, or any other source. Also, 44 CFR 206.250(c) states that “[a]ctual
   and anticipated insurance recoveries shall be deducted from otherwise eligible costs.”
   The District notified the State that it did not need the $61,958 of project funding
   because insurance proceeds covered project costs. However, at the time of our audit,
   FEMA had not deobligated the unneeded funds. Therefore, we question as ineligible the
   $61,958 ($36,236 under Project 7878 and $25,722 under Project 8512).

   Finding D: Overpayment

   The State should recoup $53,459 of FEMA funds it paid to the District under small
   Projects 7161, 7273, and 8886 because the District completed the projects using
   insurance proceeds. The State paid the District $53,459. FEMA later deobligated the
   $53,459 when it became aware that the District did not need the funds because
   insurance proceeds covered the costs of damages under the projects. However, at the
   beginning of our fieldwork, the State had not recouped the $53,459 of FEMA funds that
   it paid the District so that it could use those funds to cover reimbursement requests of
   other subgrantees or other eligible disaster-related costs. After discussing this issue with
   the State during our fieldwork, the State instructed the District to return the funds and


www.oig.dhs.gov                                 5                                     OIG-14-49-D
                                  OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security

   the District complied with the State’s request. Therefore, we consider this finding and
   the related recommendation to be resolved and closed.

   Finding E: Grant Management

   The nature and extent of ineligible costs we identified demonstrate that the State
   should have done a better job of reviewing the District’s contracting methods and
   projects. Federal regulations require grantees to (1) ensure that subgrantees are aware
   of Federal regulations, (2) manage the day-to-day operations of subgrant activity, and
   (3) monitor subgrant activity to ensure compliance.3 Therefore, we recommend that
   FEMA remind the State of its grant management responsibilities for monitoring and
   reviewing costs that subgrantees claim.


                                           RECOMMENDATIONS

   We recommend that the Regional Administrator, FEMA Region IV:

   Recommendation #1: Instruct the State to remind the District of its responsibility to
   account for project expenditures according to Federal regulations (finding A).4

   Recommendation #2: Disallow $8,109,488 of ineligible costs the District claimed for
   contracts that did not comply with Federal requirements, unless FEMA decides to grant
   an exception for all or part of the costs as provided for in 44 CFR 13.6(c) and Section
   705(c) of the Robert T Stafford Disaster Relief and Emergency Assistance Act, as
   amended (finding B).

   Recommendation #3: Instruct the State to remind the District of its responsibility to
   comply with Federal procurement regulations and FEMA guidelines when acquiring
   goods and services under the FEMA award (finding B).

   Recommendation #4: Disallow $61,958 of ineligible costs under small Projects 7878
   and 8512 because the District received insurance proceeds to cover those costs
   (finding C).




   3
     44 CFR 13.37(a)(2) and 44 CFR 13.40(a).
   4
     During our fieldwork, the District began to establish a detailed accounting system that tracks project
   cost data and references such data to applicable source documents. The District finalized the system
   during our fieldwork. Therefore, we consider this finding resolved and closed.

www.oig.dhs.gov                                         6                                            OIG-14-49-D
                                 OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security

   Recommendation #5: Instruct the State to recoup $53,459 of FEMA funds it overpaid
   on small Projects 7161, 7273, and 8886 and use those funds to cover reimbursement
   requests of other subgrantees or other eligible disaster-related costs (finding D).5

   Recommendation #6: Reemphasize to the State its responsibility to ensure subgrantees
   are aware of Federal requirements and to adequately review subgrantees’ costs for
   compliance with Federal regulations and FEMA guidelines (finding E).


                    DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP

   We discussed the results of our audit with the District, State, and FEMA officials during
   our audit. We also provided a draft report in advance to these officials and discussed it
   at the exit conference held on October 7, 2013. District officials disagreed with our
   findings and recommendations. We incorporated their comments, as appropriate, into
   the body of this report.

   Within 90 days of the date of this memorandum, please provide our office with a
   written response that includes your (1) agreement or disagreement, (2) corrective
   action plan, and (3) target completion date for each recommendation. Also, please
   include the contact information for responsible parties and any other supporting
   documentation necessary to inform us about the current status of the recommendation.
   Until we receive and evaluate your response, we will consider the recommendations as
   open and unresolved.

   Consistent with our responsibility under the Inspector General Act, we will provide
   copies of our report to appropriate congressional committees with oversight and
   appropriation responsibility over the Department of Homeland Security. We will post
   the report on our website for public dissemination.

   Major contributors to this report are David Kimble, Director; Larry Arnold, Audit
   Manager; Mary James, Auditor-in-charge; and Sean Forney, Auditor.

   Please call me with any questions at (202) 254-4100, or your staff may contact David
   Kimble, Director, Eastern Regional Office, at (404) 832-6702.




   5
     During our fieldwork, the District returned the $53,459 overpayment to the State; therefore, we
   consider this recommendation resolved and closed.

www.oig.dhs.gov                                       7                                           OIG-14-49-D
                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security

                                                                                                    Exhibit

                            Schedule of Projects Audited and Questioned Costs

                                                                Project
         Project                                               Amount         Amount
                 6
        Number       Category           Project Scope          Awarded       Questioned      Finding
                                Demolition/Cleaning/Mold
          5288          E       removal                        $ 629,918     $          0
                                D’Iberville Middle School
          8188          E       (building #A) relocation        1,425,304        1,425,304     B
                                D’Iberville Middle School
          8190          E       (building #B) relocation        1,663,278        1,663,278     B
                                D’Iberville Middle School
          8201          E       (building #C) relocation        1,597,289        1,597,289     B
                                D’Iberville Middle School
          8204          E       (building #D) relocation        1,442,375        1,442,375     B
                                D’Iberville Middle School
          8206          E       (cafeteria) relocation             845,145        845,145      B
                                D’Iberville Middle School
           8208         E       (Gymnasium) relocation          1,136,097      1,136,097       B
         Subtotal                                              $8,739,406     $8,109,488
                                Individual services building
          7161          E       repair                         $         0    $         0      D
          7212          G       Playground                           9,021              0      D
                                Harrison Central Ninth
          7273          E       (main classroom) contents               0               0      D
          8886          A       Debris removal                          0               0      D
                                Lyman Elementary School
          7878          E       (storage building) contents         36,236         36,236      C
                                D’Iberville Middle School
          8512          E       (softball building) contents        25,722         25,722      C
                                Harrison Central High
          10769         G       School (signs and fences)            4,500              0
                                Abatement (D’Iberville and
          10897         B       Harrison high schools)              15,210              0
                                Cafeteria, Harrison Central
          7319          E       High School                          2,362              0
                                D’Iberville Middle School
           7443         G       (west and east buildings)           4,662             0
         Subtotal                                              $ 97,713      $ 61,958
         Totals                                                $8,837,119    $8,171,446




   6
     Projects 8188, 8190, 8201, 8204, 8206, and 8208 comprise Improved Project 10915, D’Iberville Middle
   School replacement.

www.oig.dhs.gov                                        8                                           OIG-14-49-D
                            OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security

                                                                              Appendix

                                  Report Distribution List

   Department of Homeland Security
   Secretary
   Chief of Staff
   Chief Financial Officer
   Under Secretary for Management
   Chief Privacy Officer
   Audit Liaison

   Federal Emergency Management Agency
   Administrator
   Chief of Staff
   Chief Financial Officer
   Chief Counsel
   Chief Procurement Officer
   Director, Risk Management and Compliance
   Audit Liaison, Region IV
   Audit Liaison, (Job Code G-13-025)

   State
   Executive Director, Mississippi Emergency Management Agency
   State Auditor, Mississippi

   Subgrantee
   Superintendent, Harrison County School District

   Office of Management and Budget
   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Recovery Accountability and Transparency Board
   Director, Investigations, Recovery Accountability and Transparency Board

   Congress
   Senate Committee on Appropriations, Subcommittee on Homeland Security
   Senate Committee on Homeland Security and Governmental Affairs
   House Committee on Appropriations, Subcommittee on Homeland Security
   House Committee on Homeland Security
   House Committee on Oversight and Government Reform

www.oig.dhs.gov                              9                                 OIG-14-49-D
ADDITIONAL INFORMATION

To view this and any of our other reports, please visit our website at: www.oig.dhs.gov.

For further information or questions, please contact Office of Inspector General (OIG)
Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov, or follow us on
Twitter at: @dhsoig.”

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security 

       Office of Inspector General, Mail Stop 0305 

       Attention: Office of Investigations Hotline 

       245 Murray Drive, SW 

       Washington, DC 20528-0305 


You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
